Report No. D-2011-113                 September 30, 2011




       Improved Pricing and Oversight Needed for the
    Afghan Air Force Pilot and English Language Training
                         Task Order
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
ACOR                          Alternate Contracting Officer’s Representative
FOCUS                         Field Operations Customer Support
IDIQ                          Indefinite-Delivery, Indefinite-Quantity
NATC-A                        North Atlantic Treaty Organization Air Training
                               Command-Afghanistan
PARC                          Principal Assistant Responsible for Contracting
PEO STRI                      Program Executive Office for Simulation, Training,
                                and Instrumentation
QASP                          Quality Assurance Surveillance Plan
RTSC                          Raytheon Technical Services Company
TOR                           Technical Oversight Representative
UAE                           United Arab Emirates
                                     INSPECTOR GENERAL 

                                   DEPARTMENT OF DEFENSE 

                                    400 ARMY NAVY DRIVE 

                               ARLINGTON, VIRGINIA 22202-4704 





                                                                              September 30, 2011

MEMORANDUM FOR COMMANDER, NORTH ATLANTIC TREATY
                 ORGANIZATION TRAINING MISSION
                 AFGHANISTAN/COMBINED SECURITY TRANSITION
                 COMMAND-AFGHANISTAN
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJEGT: Improved Pricing and Oversight Needed for the Afghan Air Force Pilot and English
         Language Training Task Order (Report No. D-2011-113)

We are providing this report for review and comment. In September 2010, the Program
Executive Office for Simulation, Training, and Instrumentation (PEO STRI) issued a
task order for approximately $42.8 million for Afghan Air Force pilot and English
language training. PEO STRI officials did not obtain fair and reasonable prices for the services
on the task order or develop a formal oversight structure for the Afghan Air Force pilot and
English language training task order.

We considered management comments on a draft of this report when preparing the final report.
DoD Directive 7650.3 requires that recommendations be resolved promptly. The North Atlantic
Treaty Organization Air Training Command-Afghanistan comments are partially responsive.
Therefore, we request additional comments on Recommendation B.3 by October 31, 2011. The
Principal Assistant Responsible for Contracting at the Program Executive Office for Simulation,
Training, and Instrumentation comments are partially responsive. As a result of management
comments, we revised Recommendation A.2 directed to the Principal Assistant Responsible for
Contracting at the Program Executive Office for Simulation, Training, and Instrumentation. We
request that the Principal Assistant Responsible for Contracting at the Program Executive Office
for Simulation, Training, and Instrumentation provide additional comments on
Recommendations A.1, A.2, and A.3 by October 31, 2011.

Ifpossible, send a .pdffile containing your comments to audacm@dodig.mil. Copies of your
comments must have the actual signature of the authorizing official for your organization. We
are unable to accept the /Signed/ symbol in place of the actual signature. If you arrange to send
classified comments electronically, you must send them over the SECRET Internet Protocol
Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to Ms. Jacqueline
Wicecarver at (703) 604-9077 (DSN 664-9077).




                                             Acting Assistant Inspector General
                                             Acquisition and Contract Management
Report No. D-2011-113 (Project No. D2011-D000AS-0153.000)                        September 30, 2011

               Results in Brief: Improved Pricing and Oversight
               Needed for the Afghan Air Force Pilot and English
               Language Training Task Order

What We Did                                               What We Recommend
Our audit objective was to determine whether the          The PARC at PEO STRI should ensure that the
U.S. Army Program Executive Office for                    contractor uses personnel from the negotiated labor
Simulation, Training, and Instrumentation (PEO            categories for future procurements, determine the
STRI) obtained fair and reasonable prices for the         amount of funds already paid and seek a voluntary
goods and services on the Afghan Air Force pilot          refund from the contractor, renegotiate the task
and English language training task order, valued at       order to incorporate the labor category that is
$42.8 million, and appropriately defined contractor       currently being provided, develop a complete
surveillance and oversight processes and                  QASP, and develop and implement procedures for
procedures for the task order.                            maintaining a continuity plan for all task orders in
                                                          Afghanistan.
What We Found
PEO STRI did not obtain fair and reasonable prices        Additionally, the PARC at PEO STRI and the
on the firm-fixed-price task order. This occurred         Commander, North Atlantic Treaty Organization
because PEO STRI contracting personnel did not            Air Training Command-Afghanistan (NATC-A),
verify that the contractor used personnel from the        should create a formal written Memorandum of
negotiated labor categories to perform the task           Understanding that specifies the qualifications
order. As a result, the Army will pay                     required for the technical oversight representative
approximately $431,638 in inflated labor costs            (TOR) and the frequency of TOR site visits.
using Afghan Security Forces funds.
                                                          The Commander, NATC-A, should develop and
PEO STRI officials did not develop complete               implement policies and procedures for establishing
oversight processes or sufficiently document              and maintaining an oversight continuity plan for
procedures for the task order. This occurred              the TOR assigned to the Afghan Air Force pilot
because PEO STRI officials did not consider               and English language training task order.
including metrics and specific oversight
procedures in the quality assurance surveillance          Management Comments and
plan (QASP) because the subcontractor was                 Our Response
providing a commercial service and they felt              The PARC at PEO STRI provided comments
sufficient oversight was in place. As a result,           addressing the inflated labor costs; however, the
Army officials have limited assurance that                comments were nonresponsive to the
effective contract oversight will continue on the         recommendations. The Commander, NATC-A,
task order.                                               provided comments that referenced a QASP and a
                                                          memorandum of agreement and that discussed an
We issued a memorandum to the Principal                   oversight continuity plan. However, the comments
Assistant Responsible for Contracting (PARC) at           were only partially responsive. We request that the
PEO STRI, advising PEO STRI contracting                   PARC at PEO STRI and the Commander,
personnel to perform due diligence when                   NATC-A, provide additional comments by
considering task order modifications. The PARC            October 31, 2011. Please see the
agreed and thanked the audit team for bringing            recommendations table on the back of this page.
areas of potential cost growth to his attention.

                                                      i
Report No. D-2011-113 (Project No. D2011-D000AS-0153.000)          September 30, 2011

Recommendations Table

         Management                    Recommendations      No Additional Comments
                                      Requiring Comment              Required
Principal Assistant Responsible    A.1, A.2, A.3            B.1.a, B.1.b, B.2.a, B.2.b
for Contracting at the Program
Executive Office for Simulation,
Training, and Instrumentation
Commander, North Atlantic          B.3                      B.2.a, B.2.b
Treaty Organization Air Training
Command-Afghanistan


Please provide comments by October 31, 2011.




                                           ii
Table of Contents
Introduction	                                                           1


       Objectives                                                       1

       Background                                                       1

       Additional Documentation Concerns After Issuance of DoD

          Inspector General Report No. D-2011-066                       3

       Memorandum Regarding Observations Made During a Site Visit 

          to the Afghan Air Force Training Facility                     4

       Review of Internal Controls at PEO STRI                          4


Finding A. Inflated Labor Costs	                                        5


       Negotiated Labor Costs                                           5

       Labor Categories Used by the Contractor                          6

       No Army Verification of Labor Categories                         7

       Recover Payments for Inflated Labor Costs                        7

       Conclusion                                                       7

       Recommendations, Management Comments, and Our Response           8


Finding B. Contract Oversight Needs Improvement	                       11 


       No Defined Contract Oversight Processes and Procedures          11 

       Oversight of the Task Order                                     15 

       Conclusion                                                      16 

       Recommendations, Management Comments, and Our Response          16 


Appendices

A. Scope and Methodology	                                              20 

     Use of Computer-Processed Data                                    20 

     Prior Coverage                                                    21 

B. 	Memorandum Issued to the Principal Assistant Responsible

     for Contracting, PEO STRI                                         22 

C. Army Comments on the Memorandum	                                    26 


Management Comments

       Assistant Secretary of the Army for Procurement                 28 

       United States Central Command Office of the Inspector General   32

Introduction
Objectives
Our audit objective was to determine whether the U.S. Army Program Executive Office
for Simulation, Training, and Instrumentation (PEO STRI) obtained fair and reasonable
prices for the goods and services on the Afghan Air Force 1 pilot and English language
training task order and appropriately defined contractor surveillance and oversight
processes and procedures for the task order. This audit is the second in a series of audits
relating to the Warfighter Field Operations Customer Support (FOCUS) contract. See
Appendix A for a discussion of the scope and methodology and prior audit coverage.

Background
PEO STRI awarded contract W900KK-07-D-0001, the Warfighter FOCUS contract, on
June 6, 2007, to Raytheon Technical Services Company (RTSC), with a total contract
ceiling price of approximately $11.2 billion.

Contract Requirements
The Warfighter FOCUS contract was awarded to provide operations, maintenance,
systems integration, and engineering support services to the U.S. Army for the following
three types of training:
    •	 Live Training – training involving real people operating real systems,
    •	 Virtual Training – training involving real people operating simulated systems, and
    •	 Constructive Training – training involving simulated people operating simulated
        systems.
RTSC, as the prime contractor for the Warfighter FOCUS contract, leads a team of more
than 120 subcontractors known as the Warrior Training Alliance. RTSC created the
Warrior Training Alliance to assist in executing all training efforts issued under the
Warfighter FOCUS contract.

Contract Structure
The Warfighter FOCUS contract was structured as an indefinite-delivery, indefinite-
quantity (IDIQ) contract that included a 6-month phase-in period, 1 base year, and
9 option years. The contract was awarded with a ceiling of approximately $11.2 billion;
however, only approximately $1.2 billion of the contract was for specified work. PEO
STRI contracting personnel stated that the remaining $10 billion was for unspecified
training efforts to be incorporated into task orders when specific training efforts were
identified.


1
 The task order was awarded for the Afghan National Army Air Corps pilot and English language training.
In June 2010, the President of Afghanistan directed that the organization known as the Afghan National
Army Air Corps be called the Afghan Air Force. Therefore, we will refer to the Afghan Air Force pilot and
English language training task order throughout this report.

                                                   1

Afghan Air Force Pilot and English Language Training Task
Order
On September 17, 2010, PEO STRI issued task order 242 for Afghan Air Force pilot and
English language training using the Warfighter FOCUS contract. The total value of the
firm-fixed-price task order was approximately $42.8 million. The period of performance
for task order 242 was September 2010 to October 2013, which occurred during
Warfighter FOCUS contract option years two through five. The North Atlantic Treaty
Organization Air Training Command-Afghanistan (NATC-A) 2 developed the
requirements for the task order. The Afghan Air Force pilot and English
language training task order was awarded to the prime contractor, RTSC, who
subcontracted the training to Horizon International Flight Academy (Horizon). Horizon
is based in Al Ain, United Arab Emirates (UAE).

The Afghan Air Force pilot and English language training statement of work required the
contractor to provide fixed- and rotary-wing training for up to 80 pilots within Southwest
Asia in support of establishing the Afghan Air Force. The training included English
language training, ground school, and fixed- or rotary-wing flight school over 36 months
(see the following figure).

                                 Figure. Afghan Student Pilots




2
 NATC-A is an organization within the North Atlantic Treaty Organization Training Mission –
Afghanistan/Combined Security Transition Command-Afghanistan.

                                                  2

The subcontractor, Horizon, provides student living accommodations, student training
manuals, English language training, and fixed- or rotary-wing flight training. The prime
contractor, RTSC, employed an on-site program manager and three mentors with U.S.
military aviation experience that were located at the training facility.

Two DoD personnel (an alternate contracting officer’s representative [ACOR] and
technical oversight representative [TOR]) were stationed in Afghanistan and assigned
primary oversight responsibilities for this task order. The ACOR was assigned full-time
to PEO STRI, while the TOR worked directly for NATC-A.

Additional Documentation Concerns After Issuance of
DoD Inspector General Report No. D-2011-066
In DoD Inspector General Report No. D-2011-066, “Incomplete Contract Files for
Southwest Asia Task Orders on the Warfighter Field Operations Customer Support
Contract,” June 1, 2011, we reported that PEO STRI contracting officials lacked required
documentation essential to providing accountability and transparency in the Warfighter
FOCUS contract files. The Acting Deputy Assistant Secretary of the Army for
Procurement responded to the report, agreed with the recommendations, and stated that
PEO STRI personnel will revisit contract instructions to ensure compliance with current
regulations. Subsequent to the issuance of that report, we found continued evidence of a
lack of documentation necessary to validate contract decisions essential to providing
accountability and transparency in the Warfighter FOCUS contract files.

The Afghan Air Force pilot and English language training for this task order was
performed by a subcontractor. RTSC contracting personnel, with assistance from
PEO STRI personnel, conducted a best value subcontractor source selection to meet the
statement of work requirements for the Afghan Air Force pilot and English language
training task order. We reviewed the subcontract source selection process to determine
whether the subcontract was appropriately awarded and to verify price reasonableness.
According to RTSC summary documentation, 18 Government and contractor evaluators
performed technical evaluations on 5 subcontractor proposals during the subcontractor
source selection for the task order. However, RTSC contracting personnel could only
provide source documentation for 13 evaluations; we could only verify the authenticity of
10 of those evaluations. After several documentation requests over several months,
RTSC and PEO STRI contracting personnel were unable to provide evidence confirming
that the remaining eight evaluations were actually conducted.

Although there is no quantifiable impact of the missing documentation in this case,
subcontractors perform a significant portion of the work on the Warfighter FOCUS
contract and RTSC routinely conducts subcontract source selections to award work under
this contract. Therefore, subcontractor documentation is essential to validate contract
decisions and provide accountability and transparency in the contract files. Federal
Acquisition Regulation 15.404-3, “Subcontract Pricing Consideration,” states that the
contracting officer is responsible for the determination of a fair and reasonable price for
the prime contract, including subcontracting costs. For PEO STRI contracting personnel
to make appropriate price reasonableness determinations and to ensure that the Army is

                                             3

receiving best value for the contract, PEO STRI contracting personnel should continue to
review and improve their contract and subcontract file management.

Memorandum Regarding Observations Made During a
Site Visit to the Afghan Air Force Training Facility
On June 2, 2011, we issued a memorandum to the Principal Assistant Responsible for
Contracting (PARC) at PEO STRI to inform PEO STRI management of observations we
made during a site visit to the Afghan Air Force subcontractor training facility in Al Ain,
UAE in April 2011. The memorandum advised PEO STRI contracting personnel to
perform due diligence when considering modifications to the task order. On
June 15, 2011, the PARC at PEO STRI agreed with the requested actions in the
memorandum and thanked the audit team for bringing areas of potential cost growth to
his attention. See Appendix B for the memorandum that we issued and Appendix C for
the comments in response to the memorandum.

Review of Internal Controls at PEO STRI
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses associated with contract pricing and oversight of the Afghan Air Force pilot
and English language training task order. Specifically, PEO STRI contracting personnel
did not verify that the contractor used personnel from negotiated labor categories to
perform work on the Afghan Air Force pilot and English language training task order.
Additionally, PEO STRI officials did not create an adequate quality assurance
surveillance plan (QASP) that contained metrics or written procedures for conducting
oversight of the Afghan Air Force pilot and English language training. Further, PEO
STRI officials did not have a formal written agreement with NATC-A that defined
NATC-A technical oversight qualifications or the frequency of technical oversight
visits. We will provide a copy of the report to the senior official responsible for internal
controls at PEO STRI and the Department of the Army.




                                              4

Finding A. Inflated Labor Costs
PEO STRI did not obtain fair and reasonable prices for the services received on the firm-
fixed-price Afghan Air Force pilot and English language training task order.
Specifically, PEO STRI contracting personnel negotiated labor costs 3 for mentors that
were based on a specific senior-level labor category; however, the contractor provided
mentors that were in a lower priced labor category after the task order was awarded and
did not pass the cost savings on to the Army. This occurred because PEO STRI
contracting personnel did not verify that the contractor used personnel from the specified
negotiated labor categories. As a result, the Army will pay approximately $431,638 in
Afghan Security Forces funds for inflated labor costs.

Negotiated Labor Costs
The labor rates for the Warfighter FOCUS IDIQ contract were negotiated for the life of
the contract at the time of contract award based on labor categories and training locations.
According to PEO STRI contracting personnel, the schedule of labor rates was used to
price all requirements executed through the contract. For example, the labor rate used to
price the contract specialist for this task order was based on the contract specialist labor
category in Orlando, Florida, for contract years 2 through 5. According to the contractor,
the fixed labor rates negotiated at the award of the Warfighter FOCUS IDIQ contract
provided efficiency for pricing and negotiating task orders under the Warfighter FOCUS
contract because the labor rates did not need to be negotiated when task orders and
modifications were awarded.

PEO STRI contracting personnel negotiated a firm-fixed-price for the Afghan Air Force
pilot and English language training task order based on costs for eight different labor
categories, including the principal training and development specialist labor category.
The negotiated price for this task order included $2,547,321 in labor costs for three
mentors categorized as principal training and development specialists.

The contractor proposed three mentors to fulfill the statement of work requirement for the
contractor to provide program management functions and a safe and secure training
environment for the student pilots. According to the contractor, the mentors convey
military decorum and discipline, teach physical fitness standards, provide remedial and
colloquial American/English instruction if needed, serve as student advocates, conduct
safety and welfare inspections of the housing areas, monitor subcontractor performance
and training, accompany students on various training flights, and escort students from Al
Ain, UAE, as necessary.

The contractor proposed a price of $2,258,658 for three mentors categorized as principal
training and development specialists. To calculate the price, the contractor multiplied the
principal training and development specialist labor rates from the IDIQ contract schedule


3
 Our labor cost calculations included hardship labor premiums and cost of living allowances for each
mentor.

                                                    5

by the number of labor hours for three full-time employees. A PEO STRI project director
performed a technical evaluation of the contractor’s proposal and agreed with the
contractor’s proposed labor category and labor hours for the mentors. Based on the
evaluation, PEO STRI contracting personnel agreed to the contractor’s proposed price of
$2,258,658 for the three mentors. Additionally, PEO STRI contracting personnel
negotiated $288,663 in hardship labor premiums and cost of living allowances based on
the labor rates for the mentors, resulting in a total price for the mentors of $2,547,321.

Labor Categories Used by the Contractor
The contractor provided mentors that were in a lower priced labor category than what
PEO STRI contracting personnel negotiated. After the award of the task order, the
contractor hired mentors that were senior training and development specialists. The
contractor’s job posting for the mentor position required the applicant to have a
bachelor’s degree or equivalent work experience; however, the contractor’s proposal
stated that the principal training and development specialist must have 6 years experience
with a related bachelor’s degree. The labor rates for the senior training and development
specialists were lower than the labor rates used for the principal training and development
specialist for all years of the task order. We calculated that the labor price for the senior
training and development specialists would have been $1,866,400, using the same labor
hours that the contractor proposed for the principal training and development specialists.
Additionally, we calculated $249,283 in hardship labor premiums and cost of living
allowances based on the senior training and development specialist labor rate. This
would have resulted in a total price for the senior training and development specialists of
$2,115,683; $431,638 less than the price negotiated for the principal training and
development specialists. The following table shows the pricing information for the two
labor categories.

    Table. The Difference in Total Price Between the Principal Training and
 Development Specialists and the Senior Training and Development Specialists for
            the Period of Performance Covered by Task Order 242
  Task Order       Contract      Principal Training and     Senior Training and     Difference
   Period of        Option       Development Specialist    Development Specialist
  Performance        Year              Total Price              Total Price
September 2010        2                 $365,606                  $302,798           $62,808
to April 2011
May 2011 to            3                 906,621                   751,928           154,692
April 2012
May 2012 to            4                 937,743                   778,536           159,207
April 2013
May 2013 to            5                 337,352                   282,421            54,931
October 2013
 Total                                  $2,547,321              $2,115,683          $431,638
Note: Because of rounding, rows and columns may not sum.




                                                6

No Army Verification of Labor Categories
PEO STRI contracting personnel did not verify that the contractor used personnel from
the specified negotiated principal training and development specialist labor category to
perform the task order. Federal Acquisition Regulation Part 46, “Quality Assurance,”
requires agencies to ensure that services provided by contractors meet contractual
requirements. It also states that Government contract quality assurance will be performed
when necessary to determine that the services conform to contract requirements.

The mentors are vital to the success of the pilot training program. PEO STRI program
and contracting personnel determined that the principal training and development
specialist was an appropriate labor category for the three mentors. However, PEO STRI
contracting personnel did not verify that the Army received services from three mentors
that were principal training and development specialists. PEO STRI contracting
personnel stated that they did not perform this verification because the task order was
awarded as a firm-fixed-price contract type and the contractor is measured based on its
ability to provide the required training. However, PEO STRI contracting personnel
should have reviewed the mentors’ job description to ensure that the contractor used
personnel from the negotiated labor categories that were the basis for the price
established to perform the task order. PEO STRI contracting personnel should recover
any money paid to the contractor for using personnel from a lower priced category.
Furthermore, for future procurements, PEO STRI contracting personnel should ensure
that the contractor uses personnel from the negotiated labor categories.

Recover Payments for Inflated Labor Costs
The Army will pay approximately $431,638 in inflated labor costs over the life of the
task order using Afghan Security Forces funds based on the contractor using lower priced
                                       personnel. The difference between the total price
          The Army will pay            of the three principal training and development
     approximately $431,638 in         specialists and the three senior training and
    inflated labor costs . . . using   development specialists was $431,638, which are
    Afghan Security Forces funds       funds that could be put to better use. PEO STRI
   based on the contractor using       contracting officials must determine the amount of
       lower priced personnel.         funds already paid for inflated labor costs and
                                       initiate action to recover the funds. Additionally,
PEO STRI contracting personnel should renegotiate the task order to incorporate the
lower priced labor category that is currently being provided.

Conclusion
PEO STRI did not obtain fair and reasonable prices for the services received on the firm-
fixed-price Afghan Air Force pilot and English language training task order once the
contractor used a lower-priced labor category than what was negotiated prior to the award
of the task order. Specifically, the contractor used lower paid senior training and
development specialists instead of the services of the principal training and development
specialists. Although the contractor advertised that it prides itself on providing cost


                                            7

savings and efficiencies to PEO STRI and the Army, the contractor charged the Army too
much for the services provided.

According to a White House Memorandum for the Heads of Executive Departments and
Agencies, the President encouraged the use of firm-fixed-price contracts starting in 2009
and stated that the Federal Government must have sufficient capacity to manage and
oversee the contracting process from start to finish to ensure that taxpayer funds are spent
wisely. As the Government continues to use firm-fixed-price contracts, it is imperative
that contracting officials validate contractors’ hiring practices in order to prevent the
contractor from routinely increasing its profit by hiring cheaper labor than what was
negotiated.

Recommendations, Management Comments, and Our
Response
Revised Recommendation
As a result of management comments, we revised draft Recommendation A.2 to clarify
the nature of the actions needed to seek a voluntary refund for any inflated labor costs.

A. We recommend that the Principal Assistant Responsible for Contracting at the
Program Executive Office for Simulation, Training, and Instrumentation have the
Warfighter Field Operations Customer Support procuring contracting officers:

      1. Verify that the contractor uses the negotiated labor categories for future
procurements.

       2. Determine the amount of funds already paid for inflated labor costs and
seek a voluntary refund from the contractor related to any inflated labor costs,
pursuant to the Defense Federal Acquisition Regulation Supplement using the
procedures at Defense Federal Acquisition Regulation Supplement Procedures,
Guidance, and Information 242.7100.

       3. Renegotiate the Afghan Air Force pilot and English language training
task order to incorporate the lower priced labor category that is currently being
provided.

Deputy Assistant Secretary of the Army for Procurement
Comments
The Deputy Assistant Secretary of the Army for Procurement responded for the PARC at
PEO STRI and disagreed with our recommendations. He stated that PEO STRI could
only renegotiate or recover the allegedly inflated labor costs if the task order was a
cost-type contract or if there was defective pricing as defined in the Truth in Negotiations
Act. He stated that, according to the Federal Acquisition Regulation, a firm-fixed-price
contract provides for a price that is not subject to any adjustment on the basis of the
contractor’s cost experience in performing the contract. He also stated that, in

                                             8

accordance with the Federal Acquisition Regulation, the contracting officer will not re­
price the task order solely because the profit was greater than forecasted. The Deputy
Assistant Secretary of the Army for Procurement stated that this effort is a performance-
based service acquisition. He referenced the DoD Performance-Based Service
Acquisition Guidebook, March 1, 2001, which states that the key to performance-based
acquisition is describing requirements in terms of measurable outcomes and not in terms
of how to accomplish the requirement. The guidebook further states that because
performance-based acquisition methodologies are results-oriented, agencies should not
focus on contractor-proposed labor mixes after contract award as long as the desired
outcome is achieved in accordance with the stated performance standards and any other
requirements in the contract. The Deputy Assistant Secretary of the Army for
Procurement stated that PEO STRI reviewed the resumes of the mentors and confirmed
that the individuals hired met the criteria of the principal training and development
specialist labor category, even though the individuals were hired at the lower priced labor
category of senior training and development specialists. Furthermore, he stated that in
August 2011, PEO STRI requested an audit from the Defense Contract Audit Agency to
determine whether the task order contained defective pricing. The Deputy Assistant
Secretary of the Army for Procurement stated that PEO STRI would seek a price
adjustment if the audit revealed defective pricing.

Our Response
The Deputy Assistant Secretary of the Army for Procurement comments are not
responsive. According to the DoD Performance-Based Service Acquisition Guidebook,
one of the objectives of performance-based service acquisition is to achieve savings for
the Government. However, the contractor used a less expensive labor category than
proposed for the effort and did not pass the savings onto the Government. Further, the
Performance-Based Service Acquisition Guidebook states that the Government and the
contractor should seek to create a cooperative environment to ensure good-faith
performance. The contractor advertised that it prides itself on providing cost savings and
efficiencies to the Army. However, the contractor charged the Government for a labor
category that was not used and achieved excess profit as a result; therefore, the
contractor’s intentions of providing good-faith performance and cost efficiencies were
questionable. Although the Federal Acquisition Regulation does not allow for
adjustments on a firm-fixed price contract as a result of the contractor’s cost experience,
the Defense Federal Acquisition Regulation Supplement Procedures, Guidance, and
Information 242.7100 allows the Government to request a voluntary refund when the
contracting officer concludes that the contractor overcharged the Government on a
contract and the retention of the amount in question by the contractor would be contrary
to good conscience and equity. Therefore, pursuant to the Defense Federal Acquisition
Regulation Supplement using the procedures at Defense Federal Acquisition Regulation
Supplement Procedures, Guidance, and Information 242.7100, PEO STRI officials
should seek a voluntary refund from the contractor of funds related to any inflated labor
costs and renegotiate the task order to incorporate the lower priced labor category that is
currently being provided. Since the contractor advertised that it prides itself on providing
cost savings and efficiencies to the Army, the contractor should welcome the opportunity
to provide a voluntary refund in order to foster a cooperative environment and restore

                                             9

faith in the contractor’s ability to achieve cost savings and efficiencies for the
Government while performing the $11.2 billion Warfighter FOCUS contract. In this time
of national fiscal difficulties and congressional and public concerns about wartime
spending, it is crucial that the Government spends money prudently. We request that the
Army reconsider its position and provide comments in response to the final report.




                                          10

Finding B. Contract Oversight Needs
Improvement
PEO STRI officials did not develop complete oversight processes or sufficiently
document procedures for the Afghan Air Force pilot and English language training task
order. Specifically, PEO STRI officials did not create an adequate QASP that contained
metrics or written procedures for conducting oversight of the training. Furthermore, PEO
STRI did not have a formal written agreement with NATC-A that defined NATC-A
oversight procedures, including technical oversight qualifications or the frequency of
technical oversight visits. PEO STRI officials stated that they did not consider including
metrics and specific oversight procedures in the QASP because the subcontractor was
providing training that was commercially available. PEO STRI officials also stated that
they did not execute a formal written agreement with NATC-A because PEO STRI
contracting personnel felt that sufficient oversight was in place as a result of ongoing and
continuous informal communication. However, success of this training is critical for
NATC-A to accomplish its mission of generating and sustaining the Afghan Air Force to
enable accountable Afghan-led security. As a result, Army officials have limited
assurance that effective contract oversight will continue for the approximately
$42.8 million Afghan Air Force pilot and English language training task order,
consequently placing the future of the training of the Afghan Air Force at risk.

No Defined Contract Oversight Processes and
Procedures
PEO STRI officials did not develop complete oversight processes or sufficiently
document procedures for the Afghan Air Force pilot and English language training task
order. Specifically, PEO STRI officials did not create an adequate QASP that contained
metrics or written procedures for conducting oversight of the training. Furthermore, PEO
STRI did not have a formal written agreement with NATC-A that defined oversight
procedures.

Inadequate QASP
PEO STRI officials did not create an adequate QASP that contained metrics or written
procedures for conducting oversight of the Afghan Air Force pilot and English language
training. Federal Acquisition Regulation Part 46, “Quality Assurance,” states that quality
assurance surveillance plans should be prepared in conjunction with the preparation of
the statement of work. According to Federal Acquisition Regulation 46.401(a),
“Government Contract Quality Assurance,” the QASP should specify all work requiring
surveillance and the method of surveillance. PEO STRI contracting personnel created an
overall QASP for the basic Warfighter FOCUS IDIQ contract that stated that the
procuring contracting officer is ultimately responsible for the QASP. Additionally, a
PEO STRI project director created a QASP specifically for the Afghan Air Force pilot
and English language training task order.



                                            11

The QASP for the basic Warfighter FOCUS IDIQ contract contained a subjective
performance scale and inspection standards instead of defined metrics that related to the
Warfighter FOCUS contract. For example, the QASP provided a performance scale that
included exceptional, very good, satisfactory, marginal, and unsatisfactory ratings. The
QASP defined exceptional performance as: “performance meets contractual requirements
and exceeds many to the Government’s benefit,” and it defined very good performance
as, “performance meets contractual requirements and exceeds some to the Government’s
benefit.” The difference between “exceeds many” and “exceeds some” was subjective,
and the difference was not defined in the QASP in a measurable way.

The Afghan Air Force pilot and English language training task order QASP did not
include all of the work requiring surveillance. For example, the statement of work stated
that the U.S. Government reserves the right to observe and monitor training at the
training facilities, review student work, engage in spot testing of student
accomplishments and proficiency, and to randomly test students using the contractor’s
simulators and simulations. The QASP did not refer to this requirement or define how
oversight personnel should monitor the requirement. Additionally, the QASP included
specific tasks to be completed by the contractor; however, the requirements were written
almost verbatim from the statement of work, and the QASP did not describe surveillance
methods or metrics for those requirements. For example, the statement of work stated
that “the contractor shall maintain an individual student training file, which includes all
documents required for each student and a copy of the training file shall be delivered to
the customer upon a student's graduation or exit from a course offering.” The QASP
stated that “the contractor maintains individual student training files, which include all
documents required for each student.” However, the QASP did not detail how or when
the Government should determine whether the contractor was adequately maintaining the
student files. Furthermore, the QASP did not provide oversight metrics for the TOR or
other Government oversight personnel to use when evaluating the work performed on the
task order. For example, the QASP stated that random sampling, periodic inspection, and
customer survey and complaints are all acceptable surveillance methods but it did not
provide detail on how each method should be performed or the frequency of
performance.

PEO STRI personnel stated that they did not consider including metrics and specific
oversight procedures in the QASP because the subcontractor was an accredited flight
school providing standard pilot training that was commercially available; therefore, they
believed that detailed oversight procedures were not necessary. PEO STRI personnel
stated that the QASP was created with the assumption that the subcontractor was
qualified to provide flight instruction. PEO STRI personnel stated that if the students
demonstrated they were passing the training courses, there was no need to define specific
metrics to perform task order oversight.

The lack of a defined QASP before the start of contract performance could result in gaps
in contract surveillance and a lack of assurance that services were performed in
accordance with the terms of the contract. Additionally, without a proper QASP,
contracting officials had no standards for determining whether supplies or services

                                            12

provided by contractors complied with contractual requirements and may not be able to
prevent the waste of Government time and money. Furthermore, NATC-A officials
could not be sure that they could accomplish their mission of generating and sustaining
the Afghan Air Force to enable accountable Afghan-led security. PEO STRI contracting
officials should develop a complete and comprehensive QASP for the Afghan Air Force
task order.

No Formal Written Oversight Agreement
PEO STRI and NATC-A officials did not have a formal written agreement that defined
TOR oversight qualifications or the frequency of TOR site visits. PEO STRI officials felt
that sufficient oversight was in place as a result of ongoing and continuous informal
communication.

TOR Oversight Qualifications
PEO STRI and NATC-A officials did not have a formal written agreement that included
TOR oversight qualifications. TORs were assigned to the Warfighter FOCUS contract to
be technical representatives for the contracting officer’s representative. Specifically,
TORs were assigned to monitor contractor performance and serve as the technical contact
for the contractor to relay problems to the contracting officer’s representative. It was
essential that the TOR have proper qualifications to provide technical oversight for the
Afghan Air Force pilot and English language training requirement. The current NATC-A
appointed TOR was a Navy fixed-wing pilot; however, NATC-A did not appoint a TOR
that had rotary-wing experience to evaluate the rotary-wing portion of the training. PEO
STRI officials stated they planned to have NATC-A assign an additional TOR that had
rotary-wing experience. However, PEO STRI did not formally require that the TORs
assigned to the task order have either a fixed- or rotary-wing background, and had no
assurance that future TORs would have aviation experience.

As of June 2011, 16 students were in ground school for the Afghan Air Force pilot and
English language training and subcontractor personnel stated those students were
projected to enter the flight training portion of the curriculum in November 2011. The
task order requirement was for the contractor to train up to 80 pilots for the Afghan Air
Force and NATC-A personnel expected that all 80 students would start the training by
July 31, 2011. A TOR with aviation experience will become critical as more students
pass the English language section of the training and subsequently enter ground school
and flight training. The ACOR is capable of providing oversight of English language
training without an aviation background; however, a TOR with aviation experience will
help ensure that all 80 students are being properly trained.

Frequency of TOR Site Visits
When the task order was awarded, PEO STRI and NATC-A officials did not have a
formal written agreement on the frequency of TOR visits. After the task order was
awarded in September 2010, PEO STRI and NATC-A officials discussed the frequency
of TOR visits to the training facilities. According to PEO STRI personnel, to maintain
maximum oversight, the TOR should be permanently located at the training site.
However, NATC-A personnel stated that they could not justify sending a representative

                                            13

from their office to the training facilities as a permanent on-site TOR, and NATC-A
officials would not formally agree to a defined TOR oversight schedule for visits to the
Afghan Air Force pilot and English language training site.

In meetings between personnel at PEO STRI and NATC-A, PEO STRI program
personnel requested that the TOR conduct site visits to the Afghan Air Force pilot and
English language training site twice per month. NATC-A personnel responded that they
could not assign a TOR to conduct a site visit every month; instead they stated they could
provide personnel for an oversight visit every 60 days, or as their mission in Afghanistan
allowed. No agreement on the frequency of TOR site visits was reached.

The frequency of the TOR visits remains unclear without an agreement in place. For
example, the TOR designation letter stated that if the TOR is not located at the site with
the training, the TOR is responsible for conducting a site visit every quarter, or when
feasible. However, in January 2011, PEO STRI officials stated that the TOR and ACOR
would conduct site visits during alternate months, and the PEO STRI Afghan Air Force
pilot and English language training task order project director would go to the training
site if the ACOR or TOR could not perform a site visit. In April 2011, both the TOR and
his commanding officer at NATC-A stated that NATC-A planned to perform monthly
oversight visits to the training facilities, and the ACOR planned to provide oversight
visits when the TOR could not travel to the UAE. However, no such formal agreement
was created by NATC-A and PEO STRI officials, and the ACOR conducted the next two
site visits, in May and June 2011 without the TOR, further demonstrating the need for a
formal written agreement on the frequency of TOR oversight visits.

A formal written agreement that specified when DoD personnel would perform oversight
visits to the training facilities was necessary for sufficient contract oversight because
DoD had no permanent presence at the training site, and the training was not located in
                                          Afghanistan. The numerous, informal references
        The numerous, informal            to TOR site visits, each with different expectations
     references to TOR site visits,       regarding the frequency of site visits ranging from
   each with different expectations       twice per month to quarterly, further demonstrated
   regarding the frequency of site        the need for a formal written agreement. Current
     visits ranging from twice per        NATC-A personnel indicated that they would
      month to quarterly, further         perform monthly visits; however, NATC-A had a
     demonstrated the need for a          high turnover of personnel, with the typical tour of
      formal written agreement.           duty lasting between 6 and 12 months. Therefore,
NATC-A can provide no assurance that monthly site visits will continue after current
personnel rotate out of Afghanistan. Air defense and transportation are deemed critical to
the mobility of the Afghan National Security Forces, and without consistent technical
oversight by a trained pilot, PEO STRI and NATC-A are at risk of not obtaining
80 Afghan trained pilots who are proficient in English.




                                             14

The TOR and ACOR assigned to the Afghan Air Force pilot and English language
training task order performed a number of adequate surveillance techniques during their
site visit to the training facility in the UAE in April 2011. 4 Both the TOR and ACOR
                                           observed training classes, toured the student living
       The TOR and ACOR . . .              facilities, and validated living conditions and life
        performed a number of              support services provided to the students to verify
         adequate surveillance             that the contractor was complying with the
   techniques during their site visit      statement of work. However, if future TORs do
     to the training facility in the       not have an aviation background and the monthly
          UAE in April 2011.               site visits do not continue, PEO STRI and
NATC-A officials have limited assurance that the contractor will continue to meet the
requirements defined in the statement of work because they did not formally agree to
defined oversight processes and procedures. PEO STRI and NATC-A officials should
create a formal written agreement that specifies the required TOR qualifications and the
frequency of oversight visits.

Oversight of the Task Order
Army officials have limited assurance that effective contract oversight will continue for
the approximately $42.8 million Afghan Air Force pilot and English language training
task order without documented oversight processes and procedures in place to transfer
oversight when personnel rotate into and out of Afghanistan. The ACOR described the
current transition process as “informally formal.” When the role of ACOR transitioned in
March 2011, the current ACOR and the former ACOR had approximately a 2-week
overlap. The former ACOR provided all of his documentation related to the Afghan Air
Force pilot and English language training task order to the current ACOR but he did not
provide guidance on how to create or organize the files for the next ACOR. The former
ACOR stated that he organized the files as he would have expected to receive the
information. Additionally, the current TOR stated that he received oversight documents
for this task order from the prior TOR when he was appointed as the TOR in March 2011.
While the ACOR and TOR received information from their predecessors, this was not a
requirement. Further, contractor personnel stated several times that the current ACOR
and TOR were “much more engaged” than the previous oversight personnel,
demonstrating the inconsistency in oversight. Therefore, PEO STRI and NATC-A
officials should create policies and procedures to require a continuity file to ensure
continuous oversight of the Warfighter FOCUS task orders in Afghanistan during
personnel transitions.

PEO STRI officials cannot be certain monthly visits by NATC-A will continue once new
NATC-A personnel deploy to replace the current NATC-A personnel in Afghanistan
without written oversight procedures or formalized agreements. PEO STRI officials
maintain that informal oversight processes have worked so far; however, when
80 students enter ground school and flight training, maintaining monthly TOR site visits


4
 The April 2011 site visit was a joint oversight trip with the TOR, ACOR, and personnel from the DoD
Office of the Inspector General.

                                                  15

will become critical to ensure all 80 Afghan Air Force students are receiving proper
training in fixed- and rotary-wing flight operations.

Conclusion
Air power is critical to the mobility of the Afghan National Security Forces, and
NATC-A officials are striving to increase the Afghan Air Force’s ability to plan and
conduct operations in defense of their country. A proper QASP is essential for DoD to
ascertain that the services for the Afghan Air Force pilot and English language training
task order are performed in accordance with the task order requirements. PEO STRI
officials had no way of measuring whether contract oversight was sufficient without a
comprehensive surveillance plan. Furthermore, without a proper plan to oversee the
Afghan Air Force pilot and English language training task order, NATC-A officials
cannot ensure that they are increasing the Afghan Air Force’s ability to plan and conduct
operations in defense of Afghanistan. Given the importance of training Afghan Air Force
pilots for the future of the Afghan Air Force and to end the U.S. mission in Afghanistan,
having proper on-site DoD oversight is essential. NATC-A and PEO STRI officials
should create a formal written agreement or Memorandum of Understanding that defines
TOR qualifications as well as site visit processes and procedures.

Recommendations, Management Comments, and Our
Response
B.1. We recommend that the Principal Assistant Responsible for Contracting at the
Program Executive Office for Simulation, Training, and Instrumentation have the
Warfighter Field Operations Customer Support procuring contracting officers:

        a. Develop a complete and comprehensive quality assurance surveillance plan
for the Afghan Air Force task order in accordance with Federal Acquisition
Regulation Subpart 46.4, “Government Contract Quality Assurance.”

Deputy Assistant Secretary of the Army for Procurement
Comments
The Deputy Assistant Secretary of the Army for Procurement responded on behalf of the
PARC at PEO STRI and agreed with the recommendation. He stated that PEO STRI
developed and implemented a revised comprehensive QASP that established the method
and frequency of surveillance, the performance objectives, and the metrics for assessing
contractor performance. Additionally, he stated that the revised QASP also included a
planned inspection calendar identifying the party responsible for performing oversight
each month.

Our Response
The comments from the Deputy Assistant Secretary of the Army for Procurement were
responsive, and no additional comments are required.

      b. Develop and implement policies and procedures for establishing and
maintaining an oversight continuity plan for all Warfighter Field Operations
                                           16

Customer Support task orders that are the responsibility of the Alternate
Contracting Officer’s Representative in Afghanistan.

Deputy Assistant Secretary of the Army for Procurement
Comments
The Deputy Assistant Secretary of the Army for Procurement responded on behalf of the
PARC at PEO STRI and agreed with the recommendation. He stated that PEO STRI
currently provides supplemental contracting officer’s representative training and
contract-specific training to every ACOR assigned to Southwest Asia. He also stated that
PEO STRI implemented a contracting officer’s representative tracking tool on April 4,
2011, that is used to nominate, appoint, and terminate all contracting officer’s
representatives or ACORs and allows contracting officer’s representatives and ACORs to
upload all surveillance reports.

Further, the Deputy Assistant Secretary of the Army for Procurement stated that PEO
STRI officials began establishing a Warfighter FOCUS contract deskguide in October
2010 to provide continuity of oversight when a contracting officer’s representative or
ACOR is rotated. He stated that a draft deskguide is being pilot tested with the intent to
fully implement the guide across the Warfighter FOCUS contract by the end of FY 2012.

Our Response
The comments from the Deputy Assistant Secretary of the Army for Procurement were
responsive, and no additional comments are required.

B.2. We recommend that the Principal Assistant Responsible for Contracting at the
Program Executive Office for Simulation, Training, and Instrumentation and the
Commander, North Atlantic Treaty Organization Air Training Command-
Afghanistan, create a formal written Memorandum of Understanding that specifies:

       a. The qualifications required for the technical oversight representative.

       b. The frequency of technical oversight representative site visits.

Deputy Assistant Secretary of the Army for Procurement
Comments
The Deputy Assistant Secretary of the Army for Procurement responded on behalf of the
PARC at PEO STRI and agreed with the recommendation. He stated that PEO STRI and
NATC-A officials signed a memorandum of agreement on August 24, 2011, that
specifies the qualifications for the TOR and the frequency of TOR visits. He also stated
that the frequency of TOR visits is included in the QASP.

Commander, North Atlantic Treaty Organization Air Training
Command-Afghanistan Comments
The Executive Director, United States Central Command Office of the Inspector General,
responded on behalf of the Commander, NATC-A, and agreed with the recommendation.

                                            17

He stated that the Commander, NATC-A, and PEO STRI officials have jointly authored a
memorandum of agreement to ensure the required and continued oversight of the
contract. He further stated that the memorandum of agreement specifies the qualification
requirements and recommended deployment lengths for the TORs to reduce personnel
turnover and allow for program continuity. He also stated that the memorandum of
agreement identifies recommended site visit intervals and provides a planned inspection
calendar that identifies the month, inspection responsibilities, and command responsible
for performing the site visit. He stated that the objective inspection criteria that the
contracting officer’s representative and TOR will use during the site visits can be found
in the revised QASP. Additionally, the memorandum of agreement stated that NATC-A
will provide two TORs for the Afghan Air Force pilot and English language training task
order, one TOR for fixed-wing training and one TOR for rotary-wing training.

Our Response
The comments from the Deputy Assistant Secretary of the Army for Procurement and the
Executive Director, United States Central Command Office of the Inspector General,
were responsive, and no additional comments are required.

B.3. We recommend that the Commander, North Atlantic Treaty Organization Air
Training Command-Afghanistan, develop and implement policies and procedures
for establishing and maintaining an oversight continuity plan for the technical
oversight representative assigned to the Afghan Air Force pilot and English
language training task order.

Commander, North Atlantic Treaty Organization Air Training
Command-Afghanistan Comments
The Executive Director, United States Central Command Office of the Inspector General,
responded on behalf of the Commander, NATC-A, and agreed with the recommendation.
He stated that PEO STRI and NATC-A officials developed the revised QASP and the
memorandum of agreement to ensure the standardized oversight and surveillance of the
contract. He stated that both the rotary-wing and fixed-wing TORs will transition their
duties to their successors in the same manner as all other duties at NATC-A. He stated
that no further policies or procedures beyond the memorandum of agreement, revised
QASP, and planned inspection calendar are necessary for continuity and standardization
of inspection.

Our Response
The comments from the Executive Director, United States Central Command Office of
the Inspector General, were partially responsive. The revised QASP requires that all
surveillance records be maintained, preferably in a digital file with backup, and that the
contracting officer’s representative maintain copies of all inspections and performance
records. The QASP also provides general guidance concerning the contents of the
monthly observation report. However, the QASP did not specify where the file will be
maintained or how the contents of the file will be transferred to ensure continuity.
Further, the Director’s response indicated that the TORs will transition their duties to
their successors in the same manner as all other duties in NATC-A. However, the
                                             18

Director did not define the current process used to transfer duties within NATC-A. We
request that the Commander, NATC-A, provide additional comments in response to the
final report explaining the process used to transfer duties within NATC-A.




                                          19

Appendix A. Scope and Methodology
We conducted this performance audit from January 2011 through July 2011 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

This is the second in a series of audits on contract W900KK-07-D-0001, the Warfighter
FOCUS contract. We gathered available Warfighter FOCUS contract documentation
covering the period of June 2007 through July 2011. We focused our review to
determine whether PEO STRI obtained fair and reasonable prices for the goods and
services on the Afghan Air Force pilot and English language training task order and
appropriately defined contractor surveillance and oversight processes and procedures for
the task order. We reviewed the Federal Acquisition Regulation and Defense Federal
Acquisition Regulation Supplement criteria in our review of the Warfighter FOCUS
contract. Additionally, we conducted site visits and interviewed personnel at the
following locations:
    •	 Program Executive Office for Simulation, Training, and Instrumentation, 

        Orlando, Florida; 

    •	 Raytheon Technical Services Company, Orlando, Florida;
    •	 Defense Contract Audit Agency, Dulles, Virginia;
    •	 Defense Contract Management Agency, Dulles, Virginia;
    •	 Defense Contract Management Agency, Orlando, Florida; and
    •	 Horizon International Flight Academy, Al Ain, UAE.

We reviewed the Afghan Air Force pilot and English language training task order
covering training performed in the UAE from December 2010 through July 2011. We
reviewed contract and subcontract files for the task order valued at approximately
$42.8 million.

Use of Computer-Processed Data
We relied on computer-processed data from the Electronic Document Access Web site.
Electronic Document Access is a web-based system that provides secure online access,
storage, and retrieval of contracts and contract modifications to authorized users
throughout DoD. We used documents retrieved from Electronic Document Access to
review the Warfighter FOCUS basic contract background information. We compared the
contract documentation obtained from Electronic Document Access to the contract
documentation in the contract file at PEO STRI and verified that the documentation we
obtained from Electronic Document Access was accurate. We are confident that the
Electronic Document Access Web site was sufficiently reliable for the purpose of
obtaining background information on the Warfighter FOCUS basic contract.




                                           20

Prior Coverage
During the last 5 years, DoD has issued one report discussing the Warfighter FOCUS
contract. Unrestricted DoD Inspector General reports can be accessed at
http://www.dodig.mil/audit/reports.

DoD Inspector General
DoD Inspector General Report No. D-2011-066, “Incomplete Contract Files for
Southwest Asia Task Orders on the Warfighter Field Operations Customer Support
Contract,” June 1, 2011




                                          21

Appendix B. Memorandum Issued to the
Principal Assistant Responsible for
Contracting, PEO STRI




                   22

23

24

25

Appendix C. Army Comments on the
Memorandum




                   26

27

Assistant Secretary of the Army for Procurement
Comments




                                    DEPARTMENT OF THE ARMY
                              OFFICE OF T HE ASSIST ANT SECRET ARY OF THE ARMY
                                  ACaUISITION LOGISTICS AND lECHNOLOGY
                                             103 ARMY PENTAGON
                                         WASHINGTON DC 20310-0103


       SAAL-PK                                                                   SEP 1 3 2011


       MEMORANDUM FOR THE DEPUT Y INSPECTOR GENERAL FOR AUDITING ,
       ACQU ISITION AND CONTRACT MANAGEMENT , 400 ARMY NAVY DRI VE,
       ARLINGTON , VA 22202-4704

       SUBJECT: Improved Pricing and Oversight Needed for the Afghan A ir Force Pilot and
       Engli sh Language Traini ng Task Order (Project No. D2011-DOOOAS-0153.000)


       1. The referenced report makes seve n recommendations to th e Principal Assistant
       Responsible for Contracting at the Program Executive Office for Simulation, Training,
       and Instru mentation. The Army non-concurs with three of the recommendations and
       concurs w ith four of the recommendations to the Aud it report. My comments are
       enclosed.

       2. My point of contact for this memorandum is


                                 Click to add JPEG file
                                                   .,6,.)_
                                                        ..
       Enel                                        Kim D. Denver
                                             Deputy Assistant Secretary
                                             of the Army (Procurement)




                                                                 28
                                                                                                      Final Report 

                                                                                                       Reference






                                        ENCLOSURE

Recommendations addressed to the Principal Assi stant Responsible tor Contractin g at
th e Program Executive Office for Simulation, Training, and Instrum entation (PEO STRI ):

Inflated Labor Costs:

   A.1: Ve rify that the contractor uses th e negotiated labor catego ries for futu re
procuremen ts.

    A.2: Determine the a mount of fu nd s a lready paid for infla ted labor costs and initiate
action to recove r the funds.

   A.3: Re negotiate th e Afghan Air Force pilot and English language training task
order to incorporate the lower priced labor category that is cu rrently being provided.

     Response: In respo nse to recommendations to A. t , A.2 and A.3 the Army Non­
                                                                                                    Revised
ccncurs. As this is, a firm-fixed price Task Order, PEO STRI would only be able to
renegotiate or to recover allegedly inflated labor costs if th is we re a cost type contract or     Recommendation
if there is defective pricing under th e T ruth in Negotiations Act (TINA). Per FAR 16.202-         A.2
1, a firm-fi xEd -price contract provides for a price that is "not subject to any adjustment
on the basis of th e contracto r's cost experience in performing the contract". The
Government is only entitl ed to a price adjustment in situ ations invo lvi ng "defective
prici ng data" per th e TINA . In accordance wit h FAR 15 .407- 1(c) , the contract ing offi ce r
shall not re-price the contract solely because the profit was greater than forecasted.

    Consistent with the Federal Acquisition Regulati on (FAR), th is effort is a
pertonnance based seNices acquisition. As such, the ex.ec ution of the Warfighter
Focus (W FF) con tract is in accordance with th e Departmen t of Defense (DoD)
"Performance-Based Service Acquisition Guidebook", dated 01 March 2001. The
Guidebook. page 11 . "Manpower Requirements And Labor Category Descriptions"
states. "As reiterated fhrou ghout this guidebook , th e key to performance-based
acquis ition is describing req uirements in te rm s of measurable outco mes and not in
terms of how to accomp lish the requirement. This app li es equally to labor category
             H
descriptions. It further states, "Since performance-based acquisiti on methodologies
are results-orie nted , agencies should not focus on cont ractor-proposed labor mix.es
after contract award as long as the desired outcome is achieved in accordance with the
stated pe rformance standards a nd a ny oth er requirements in the contract. "

    PEO STRI re-reviewed the three Mentor's resumes and reaffirms that th e individuals
hired meet the criteria of the "Principal Trainin g and Development Specialist" labor
category, even though th ey we re hired at the lower "Senior T raining and Development
Specialist" labor rate.




                                                           29
    As stated above, the Government is only entitled to a price adjustrnent in situations
involving "defective pricing data" per T IN A. Defect ive pricing is defin ed as any
co ntracti ng action subject to T INA where the negotiated con tract price incl uding prof it or
fee was increased by a significant amount because th e contractor (or a subcontractor)
furnished to the Government cost or pricing data that was not comp lete, accurate, and
current as of the date ce rtified in the co ntractor's Certificate of Current Cost or Pricing
DFlta .

   To dete rmine if this task order has defective pricing as defined in TIN A, PEO STR I
requested an audit from the Defen se Contract Audit Agency on 17 August 2011 to
eval uate the acc uracy, comp leteness , and currency of the data veri fied by the
Contractor at the time of ce rtification. Should th e audit reveal defective pricing, PEO
STRI shall seek the price adjustm ent to wh ich the gove rnme nt is entitled .

Contract Oversight Needs Improveme nt:

    B.l. a : Develop a comp lete and comprehensive quality assurance surveillance plan
(QASP) for the Afghan Air Force task order in accordance with FAR Subpart 46.4,
"Government Contract Qua lity Assurance ."

     Response : Co ncur. PEO STR I developed a nd implemented a revised
comprehen sive QASP . Th e revised QASP established th e method and frequen cy of
                             Click to add JPEG file
survei llance , the performance object ive and the metri cs for assessing the performance
of the contractor. T he revised QASP also includes a planned inspecti on calendar that
includes who is pe rformi ng Ihe inspecti on eac h month.

   B.1.b: Develop and implement policies and procedures for establishing and
maintaining an oversight continuity plan for all Wa rtighter Field Operations Customer
Support task orders that are the responsibility of th e Alternate Contracting Officer's
Representative (AGa R) in Afghanistan.

   Response: Concur. Cu rrently PEO STR I provides supplementa l C OR trai ning to
every ACOR assig ned to Southwest Asia . In additi on to COR refresher training , all
ACORs rece ive contract specifi c train ing. On 4 Apri l 20 11 PEO STRI imple mented the
COR Tracking Toot. Thi s tool is utili zed to nomin ate , appoi nt and term inate all
COR/ACORs for new orders. Additional ly the COR/ACOR upload all monthly reports,
trip reports and oth er miscel laneous documentation as applicable to the track ing tool.

    In October 2010, PEa STRI took the steps to establish a standardized W FF contract
desk guide. Th is desk guide will provide conti nuity of oversight whe never a COR/ACOR
is rotated , Cu rrently a "draft" COR Desk Guide is being piloted and the intent is to lull y
implement the Desk Guide across the contract by end of FY12,




                                                2




                                                           30
   B.2.a and B.2.b: Create a formal written Memorandum of Understanding with
Commander, North Atlantic T reaty Organization Air Training Command·Afghan istan
(NATC -A) that specifies the qualifications requi re d for the technical oversight
rep resentative and the frequency of tech nical oversig ht represe ntative site visi ts.

   Response: Concur. On 24 Aug ust 201 1 PEO STRI and NATC-A signed a
Memora ndum of Agreement that specifies the qualifications for the Techn ical Ove rsight
Representative (TOR ) and th e frequency of TOR visits that the revised GASP
establ ished.




                             Click to add JPEG file




                                               3




                                                           31
United States Central Command Office of the Inspector
General Comments




                              UNITED STA'fES CENTRAL COMMAND
                                 ORleE OF THE INSPECfOR GENERAL
                                 7115 SOUTH BOUNDARY BOULEVARD
                              MACDlLL AlR FORCE BASE. FLORIDA 33621-5101


                                                                                23 August 20 11

      FOR: DEPARTMENT OF DEFENSE INSPECTOR GENERAL

      SUBJECT: United States Central Command Response to Department of Defense
               Inspector General (DoDIG) Draft Report, "Improved Pricing and Oversight
               Needed for the Afghan Air Force Pilot and English Language Training Task
               Order" (DODIG Project D2011-DOOOAS-01S3.000)


      I . Thank you for lhe oppUrLUni ly lO responrJ to the recommendations presented in the
      DoDIG draft report.

      2. Attached is the CSTC-A response to the recommendations. CENT COM has no
      additional technical comments.

      3. The Point of Contact is • • • •              Chief, Extemal Assessments.
      USCENTCOM Inspector General.




                                     ~GS-15,DAF
                                                ~ ~~
                                                  r        ,l,:
                                                      ANE T. RACKLEY

                                        ~ecutive Director

      Enclosure
      CSTC-A Response




                                                              32
                               DODIG Draft Report Review
                            (DDDIG D2011 - DOOOAS-0153.000)

    "Improved Pricing and Oversight Nee de d for the Afghan Air Force Pilot and
                     English Language Training Task Order"


                                           SECTION I

       COMMENTS TO THE DRAFT REPORT RECOMMENDATIONS (SEE PAGE 14)



Recommendation B. 2. We recommend that the Principal Assistant Responsible for
Cont racting at the Program Executive Office for Simulation, Tr aining, and Instrumentation
and the Commander, North Atlantic Treaty Organization Air Train ing Com mand-Afghanistan,
create a forma l written Memorandum of Understanding that specifies:

a. The qualifications requ ired fo r the technical oversight representative.

CSTC-A RESPONSE: Concur wi comment . The Principa l Assistant Responsible for
Contracting at the Program Executive Office for Simulatio n, Training, and Instrumentation
(PEO STRI) and the Commander, North Atlantic Treaty Organization Air Tra ining Command ­
Afghanistan (NATe-A), have jointly authored a J'ol emorandum of Agreement (MOA) to
ensure the required and continued oversight of Prime contracted efforts in AI Ain, UAE. The
                               Click to add JPEG file
MOA specifies t he qualification requirements and recommended deployment lengths fo r
se lected Technical Oversight Representatives (TORs) to reduce the personnel turnover
frequency and allow for prog ram continu ity. Add itiona lly, the MOA identifies recommended
site visit intervals and attendance fo r both PEO STRI Contracting Office r Representatives
(CORs) and NATC-A TORs (Planned I nspection Ca lendar) . The Planned Inspection Ca lendar
identifies the month, inspection respons ibilities, and command respons ible for performing
the site visit. The obj ective inspection criteria used by the COR and TOR during site v isits
can be found in the revised Quality Assurance Surveillance Plan (QASP).

b. The frequency of techn ical oversight representative site visits.

CSTC-A RESPONSE: Concu r        wi   comment . See Recommendation B.2.a response (above) .


Recommendation B.3. We recommend t hat the Commander, North Atlantic Treaty
Organ ization Air Training Command-Afghanistan, deve lop and imp lement policies and
procedures for establ ishing and maintain ing an oversight continuity plan for the techn ical
oversight representative assigned to the Afghan Ai r Force pi lot and English language
tra ining task
order.

CSTC-A RESPONSE: Concur wI comment. PEO STRI and NATC-A concurrently deve loped
the revised QASP and MOA to ensu re the standardized overSight and surveillance of
contracted efforts at AI Ain, UAE for the duration of the contract. The Rotary Wing TOR and
the Fixed Wing TOR will turn over t heir duties to their relief in the same manner as all other
duties in NATC-A. No further policies or procedu res beyond the MOA, revised QASP and
Planned Inspection Calendar are necessary fo r continuity and standa rdization of inspection.




                                                              33
